RESPONDENTS APPENDIX
TABLE OF CONTENTS

Defendant’s Requested Jury Instructions
Nos. 6, 7, 10 (February 14, 2018) ....................... 1a
Jury Instructions as Read by Judge Roby
(February 14, 2018) ............................................ 8a
Email from Ed Fielding to Maggy Hurchalla
(January 12, 2013)............................................ 17a
Email from Maggy Hurchalla to Sarah Heard
(September 9, 2012).......................................... 19a

Res.App.1a
DEFENDANT’S REQUESTED
JURY INSTRUCTIONS 6, 7, 10
(FEBRUARY 14, 2018)
IN THE CIRCUIT COURT OF THE
19th JUDICIAL CIRCUIT IN AND FOR
MARTIN COUNTY, FLORIDA
________________________
LAKE POINT PHASE I, LLC, and
LAKE POINT PHASE II, LLC,
Florida Limited Liability Companies,

Plaintiffs,
v.
SOUTH FLORIDA WATER MANAGEMENT
DISTRICT, a Public Corporation of the State of
Florida; MARTIN COUNTY, a Political Subdivision
of the State of Florida; and MAGGY HURCHALLA,

Defendants.
________________________
Case No. 2013-001321-CA
Defendant, MAGGY HURCHALLA, requests the
Court to instruct the jury in accordance with the
instructions attached hereto.

Res.App.2a
LITTMAN, SHERLOCK & HEIMS, P.A.
Attorneys for Defendant MAGGY HURCHALLA
P.O. Box 1197
Stuart, FL 34995
(772) 287-0200
LSHLawfirm@gmail.com
By

/s/ Virginia P. Sherlock
Florida Bar No. 893544

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy
of the foregoing has been furnished by hand delivery
and through the Florida Courts E-Filing Portal to:
ETHAN J. LOEB, ESQ., JOHN P. TASSO, ESQ.,
DAN BISHOP, ESQ., CHRISTINA CARLSON
DODDS, ESQ., E. COLIN THOMPSON, ESQ. counsel
for Plaintiffs, at ethanl@smolkerbartlett.com, Susanm@
smolkerbarlett.com, jont@smolkerbartlett.com, cynthiam
@smolkerbartlett.com. dbishop@bishoplondon.com,
ColinT@smolkerbartlett.com, cdodds61@gmail.com this
5th day of February, 2018.
/s/ Virginia P. Sherlock

Res.App.3a
DEFENDANT’S PROPOSED
JURY INSTRUCTION NO. 6:
SUMMARY OF CLAIMS AND DEFENSES
The claims and defenses in this case are as follows.
Lake Point claims that Mrs. Hurchalla wrongfully
interfered with the Interlocal Agreement between the
South Florida Water Management District and Martin
County and that her conduct caused a breach or
breaches of the agreement which harmed Lake Point.
Mrs. Hurchalla denies that she wrongfully interfered with the agreement. She claims she has a constitutional right to free speech and to communicate with
public officials about a matter of public interest so long
as her sole motivation was not to harm the Plaintiffs.
She also denies that the Interlocal Agreement was
breached or that she caused any breach.
Mrs. Hurchalla has asserted certain defenses,
including failure of the Plaintiffs to mitigate their
losses because they took no action to prevent any
breach of contract or to reduce their damages.
The parties must prove all claims and defenses by
the greater weight of the evidence. I will now define
some of the terms you will use in deciding this case.

See Florida Standard Jury Instructions in Civil Cases
408.2 (modified)
Denied Over Objection

Res.App.4a
DEFENDANT’S PROPOSED
JURY INSTRUCTION NO. 7:
TORTIOUS INTERFERENCE WITH A
CONTRACT NOT TERMINABLE AT WILL
The issues for you to decide on Lake Point’s claim
against Mrs. Hurchalla are whether Mrs. Hurchalla
wrongly or unjustifiably interfered with the Interlocal
Agreement and, if so, whether such wrongful interference caused a material breach which was the legal
cause of damage to Lake Point.
A person interferes with a contract between two
or more other persons if he or she induces or otherwise
causes one of the parties to materially breach or
refuse to perform the contract. Intentional interference
with another person’s contract is improper unless
there is legal justification for the conduct.
Interference is intentional if the person interfering
knows of the contract with which he or she is
interfering, knows he or she is interfering for an
improper purpose, and desires to interfere or knows
that interference is substantially certain to occur as
a result of his or her action.
Interference is not wrongful or unjustified if the
person interfering has an interest that he or she has
a duty or right to protect. A citizen exercising a First
Amendment right to free speech or to petition government for redress of grievances has a qualified
privilege to speak with government representatives
to express an opinion or concern about a matter of
public interest. When a person contacts her governmental representatives, her conduct is protected from
claims such as tortious interference with a contract

Res.App.5a
so long as her sole motivating factor was not to cause
harm to the party who claims to be damaged.
Wrongful interference with a contract is a cause
of damage if it directly and in natural and continuous
sequence produces or contributes substantially to
producing a material breach that results in damage,
so that it can reasonably be said that, but for the
interference with the complaining party’s contract,
the damage would not have occurred.
In order to be regarded as a legal cause of damage,
the interference with contract need not be the only
cause. Interference with a party’s contract may be a
legal cause of damage even though it operates in
combination with other causes if the interference
with a party’s contract contributes substantially to
producing such damage.
If the greater weight of the evidence does not
support Lake Point’s claim of tortious interference with
the Interlocal Agreement, then your verdict should
be for Mrs. Hurchalla. However, if the greater weight
of the evidence supports Lake Point’s claim, then you
shall consider Mrs. Hurchalla’s defenses.

See Florida Standard Jury Instructions in Civil Cases
408.4; 408.5 (modified-Notes 2, 3); 408.6 (modified);
Nodar v. Galbreath, 462 So.2d 803, 810-11 (Fla. 1984);
McCurdy v. Collis, 508 So.2d 380, 383 (Fla. 1st DCA
1987)
Denied Over Objection

Res.App.6a
DEFENDANT’S PROPOSED
JURY INSTRUCTION NO. 10:
FIRST AMENDMENT PRIVILEGE
On the issue of privilege, I instruct you that so
long as one does not speak with express malice,
which I shall explain in a moment, a private citizen
such as Mrs. Hurchalla is privileged and permitted
to make a statement to her County Commissioners,
other governmental bodies, or government employees
about a project such as Lake Point.
The privilege applies even if a statement is untrue
if the statement was made to a political authority
regarding a matter of public concern and if the statement was not made with express malice.
This is called a qualified privilege, that is, the
privilege to communicate with government representatives is not absolute but exists when the person exercising the privilege does so without express malice.
If you find that Mrs. Hurchalla made statements
to a political authority regarding matters of public
concern, then you should decide whether, as Lake
Point claims, Mrs. Hurchalla made the statements
with express malice.
Express malice exists when someone makes a
false statement with the sole purpose of gratifying
one’s ill will or if the person has hostility and intent
to harm the other rather than to advance and protect
an interest involving a matter of public concern.
If the greater weight of the evidence shows that
Mrs. Hurchalla had a qualified privilege in communicating with local government officials, then your
verdict should be for Mrs. Hurchalla on Lake Point’s

Res.App.7a
claim of tortious interference with the Interlocal Agreement.

See Florida Standard Jury Instructions in Civil Cases
405.9 (modified); Nodar v. Galbreath, 462 So.2d 803,
810-11 (Fla. 1984); McCurdy v. Collis, 508 So.2d 380,
383 (Fla. 1st DCA 1987).
Denied Over Objection

Res.App.8a
JURY INSTRUCTIONS
AS READ BY JUDGE ROBY
(FEBRUARY 14, 2018)
INSTRUCTIONS NO. 1:
SUMMARY OF CLAIMS AND CONTENTIONS
The claims and defenses in this case are as follows.
Lake Point claims that Hurchalla intentionally interfered with the Interlocal Agreement between Lake
Point, the South Florida Water Management District,
and Martin County (the “Interlocal Agreement”),
causing harm to Lake Point.
Hurchalla denies Lake Point’s claim and defends
that her conduct is protected by her First Amendment
right to petition the government.
The parties must prove all claims and defenses
by the greater weight of the evidence. I will now define
some of the terms you will use in deciding this case.
“Greater weight of the evidence” means the more
persuasive and convincing force and effect of the entire
evidence in the case.
You are hereby instructed that Lake Point is a
party to the Interlocal Agreement.

Res.App.9a
INSTRUCTION NO. 2:
FAILURE TO MAINTAIN EVIDENCE
OR KEEP A RECORD
If you find that Hurchalla deleted or otherwise
caused various emails between her and Martin County
Commissioners to be unavailable, while they were
within Hurchalla’s possession, custody, or control;
and the emails would have been material in deciding
the disputed issues in this case; then you may, but
are not required to, infer that this evidence would
have been unfavorable to Hurchalla. You may consider
this, together with other evidence, in determining the
issues of the case.

Res.App.10a
INSTRUCTION NO. 3:
TORTIOUS INTERFERENCE
The issues for you to decide on Lake Point’s claim
against Hurchalla are whether Hurchalla intentionally interfered with the Interlocal Agreement between
Lake Point, Martin County, and the South Florida
Water Management District, and if so, whether such
interference was a legal cause of damage to Lake Point.
A person interferes with a contract between two
or more other persons if he or she induces or otherwise
causes one of them to breach or refuse to perform the
contract.
Intentional interference with another person’s
contract is improper. Interference is intentional if the
person interfering knows of the contract with which
he or she is interfering, knows he or she is interfering,
and desires to interfere or knows that interference is
substantially certain to occur as a result of his or her
action.
Interference with a contract is a cause of damage
if it directly and in natural and continuous sequence
produces or contributes substantially to producing
such damage, so that it can reasonably be said that,
but for the interference with a contract, the damage
would not have occurred. In order to be regarded as a
legal cause of damage, the interference with contract
need not be the only cause. Interference with a contract
may be a legal cause of damage even though it operates
in combination with the act of another or some other
cause if the interference with contract contributes
substantially to producing such damage.
If the greater weight of the evidence does not
support Lake Point’s claim, then your verdict should

Res.App.11a
be for Hurchalla. However, if the greater weight of the
evidence supports Lake Point’s claim, then your verdict
should be for Lake Point, unless you find that the
interference was proper based on Hurchalla’s defense
of a First Amendment right to petition the government.
Hurchalla claims as a defense that the First
Amendment gives her the privilege to freely petition
the government on matters of public concern. You must
render your verdict in favor of Hurchalla on Lake
Point’s tortious interference claim if you find that
Hurchalla used proper methods to attempt to influence
Martin County, and that her motive for petitioning
Martin County was not primarily to harm Lake Point.
However, deliberate misrepresentations of fact are not
considered to be a proper method.
If the greater weight of the evidence does not
support the defense of Hurchalla and the greater
weight of evidence supports Lake Point’s claim, then
you should consider the issue of damages.

Res.App.12a
INSTRUCTION NO. 4:
DAMAGES
If you find for Hurchalla, you will not consider
the matter of damages. But, if you find for Lake Point,
you should award Lake Point an amount of money
that the greater weight of the evidence shows will
fairly and adequately compensate Lake Point for the
damage that was caused by the intentional interference.
To be entitled to recover lost profits, Lake Point
must prove both of the following:
1.

Hurchalla’s actions caused Lake Point to lose
profits; and

2.

Lake Point can establish the amount of its
lost profits with reasonable certainty. For
Lake Point to establish the amount of its
lost profits with reasonable certainty, it must
prove that a reasonable person would be
satisfied that the amount of lost profits that
Lake Point may be entitled to recover is not
simply the result of speculation or guessing.
Instead, Lake Point must prove that there is
some standard by which the amount of lost
profits may be established. Lake Point does
not have to be able to prove that the amount
of lost profits can be calculated with mathematical precision as long as it has shown
there is a reasonable basis for determining
the amount of the loss.

Res.App.13a
INSTRUCTION NO. 5:
CREDIBILITY OF WITNESSES
In determining the believability of any witness and
the weight to be given the testimony of any witness,
you may properly consider the demeanor of the witness
while testifying; the frankness or lack of frankness of
the witness; the intelligence of the witness; any
interest the witness may have in the outcome of the
case; the means and opportunity the witness had to
know the facts about which the witness testified; the
ability of the witness to remember the matters about
which the witness testified; and the reasonableness of
the testimony of the witness considered in the light
of all the evidence in the case and in the light of your
own experience and common sense.
Some of the testimony before you was in the form
of opinions about certain technical subjects by expert
witnesses. You may accept such opinion testimony,
reject it, or give it the weight you think it deserves,
considering the qualifications, knowledge, skill, experience, training, or education of the witness, the reasons
given by the witness for the opinion expressed, and all
other evidence in the case.

Res.App.14a
INSTRUCTION NO. 6:
CLOSING INSTRUCTIONS
Members of the jury, you have now heard all the
evidence, my instructions on the law that you must
apply in reaching your verdict and the closing arguments of the attorneys. You will shortly retire to the
jury room to decide this case. Before you do so, I have
a few last instructions for you.
During deliberations, jurors must communicate
about the case only with one another and only when
all jurors are present in the jury room. You will have
in the jury room all of the evidence that was received
during the trial. In reaching your decision, do not do
any research on your own or as a group. Do not use
dictionaries, the Internet, or any other reference materials. Do not investigate the case or conduct any
experiments. All jurors must see or hear the same
evidence at the same time. Do not read, listen to, or
watch any news accounts of this trial.
You are not to communicate with any person outside the jury about this case. Until you have reached
a verdict, you must not talk about this case in person
or through the telephone, writing, or electronic communication, such as a blot, twitter, e-mail, text message,
or any other means. Do not contact anyone to assist
you, such as a family accountant, doctor, or lawyer.
These communications rules apply until I discharge
you at the end of the case. If you become aware of any
violation of these instructions or any other instruction
I have given in this case, you must tell me by giving
a note to the bailiff.
Any notes you have taken during the trial may be
taken to the jury room for use during your discussions.

Res.App.15a
Your notes are simply an aid to your own memory,
and neither your notes nor those of any other juror are
binding or conclusive. Your notes are not a substitute
for your own memory or that of other jurors. Instead,
your verdict must result from the collective memory
and judgment of all jurors based on the evidence and
testimony presented during the trial.
At the conclusion of the trial, the bailiff will collect
all of your notes and immediately destroy them. No one
will ever read your notes.
In reaching your verdict, do not let bias, sympathy,
prejudice, public opinion, or any other sentiment for
or against any party to influence your decision. Your
verdict must be based on the evidence that has been
received and the law on which I have instructed you.
Reaching a verdict is exclusively your job. I cannot
participate in that decision in any way and you should
not guess what I think your verdict should be from
something I may have said or done. You should not
think that I prefer one verdict over another. Therefore,
in reaching your verdict, you should not consider anything that I have said or done, except for my specific
instructions to you.
Pay careful attention to all the instructions that I
gave you, for that is the law that you must follow. You
will have a copy of my instructions with you when
you go to the jury room to deliberate. All the instructions are important, and you must consider all of them
together. There are no other laws that apply to this
case, and even if you do not agree with these laws, you
must use them in reaching your decision in this case.
When you go to the jury room, the first thing
you should do is choose a presiding juror to act as a

Res.App.16a
foreperson during your deliberations. The foreperson
should see to it that your discussions are orderly and
that everyone has a fair chance to be heard.
It is your duty to talk with one another in the
jury room and to consider the views of all the jurors.
Each of you must decide the case for yourself, but
only after you have considered the evidence with the
other members of the jury. Feel free to change your
mind if you are convinced that your position should
be different. You should all try to agree. But do not give
up your honest beliefs just because the others think
differently. Keep an open mind so that you and your
fellow jurors can easily share ideas about the case.
I will give you a verdict form with questions you
must answer. I have already instructed you on the law
that you are to use in answering these questions. You
must follow my instructions and the form carefully.
After you answer the questions, the form tells you
what to do next. I will now read the form to you:
(read form of verdict)
Your verdict must be unanimous, that is, your
verdict must be agreed to by each of you. When you
have agreed on your verdict and finish filling out the
verdict form, your foreperson must write the date and
sign it at the bottom and return the verdict to the
bailiff.
If any of you need to communicate with me for
any reason, write me a note and give it to the bailiff.
In your note, do not disclose any vote or split or the
reason for the communication.
You may now retire to decide your verdict.

Res.App.17a
EMAIL FROM ED FIELDING
TO MAGGY HURCHALLA
(JANUARY 12, 2013)
From: ‘Ed Fielding’ <evf7660@gmail.com>
To: Maggy Hurchalla<mhurchalla@hotmail.com>
Sent: Saturday, January 12, 2013 1:41 PM
Subject: Re: mess
_________________________________________________
Maggy, hope it is a most enjoyable trip. Thanks for
your observations. Ed
On Sat, Jan 12, 2013 at 11:31 AM, Maggy Hurchalla
<mhurchalla@hotmail.com> wrote:
Lake Point mess.
Lake Pt is on the agenda Tuesday to accept
$44,000 they should have given you for the “environmental fund”
DON’T DO IT!
If you accept the money it can be argued that the
Interlocal agreement with SFWMD and the
County is in effect.
IT IS NOT.
Most simply, it does not go into effect until the
property is transferred.
The property has not been transferred.
INSTEAD ask staff to bring back an agenda item
terminating the Interlocal agreement.
The agreement does not do what the county was
promised:

Res.App.18a
- it does not require the owner to build anything
- it does not guarantee any benefits to the county
- it appears to declare the the [sic] project a
“county public works project.” It is not and
cannot qualify under the comp plan. Place the
comp plan exception in the record.
Avoid discussion of other issues. Don’t complicate
things. Just set up a meeting to legally void that
contract.
After that has been done staff can be directed to
continue to follow up on violations of the county
rules for the Lake Pt. SD.
DON’T issue any cease and desist on the mining.
Get the contract canceled and wait for staff to
come back.
Doug will scream that you are missing an opportunity to save the river and giving up money due
the county. Engineering will back him up. Donaldson is Doug’s man. Simply point out this is a badly
drawn contract that does not protect the county.
After it is voided, if the SFWMD and the owner
can come back with a contract that does benefit
Martin County, we can negotiate a new contract.
I will be home Monday evening 287-0478
Going to Ecuador Wednesday.
Deep Rockpit

Res.App.19a
EMAIL FROM MAGGY HURCHALLA
TO SARAH HEARD
(SEPTEMBER 9, 2012)
From: Sarah Heard
To: Sarah Heard
Subject: FW: Water
Date: Sunday, September 09, 2012 2:34:59 PM
_________________________________________________
owner of Lakepoint Ranch?
----Forwarded Message---From: Maggy Hurchalla <mhurchalla@hotmail.com>
To: Sarah Heard <pockethouse@yahoo.com>
Sent: Sunday, September 9, 2012 11:07 AM
Subject: water
Ask staff
and cc, Melisa Meeker, Kevin Powers, PBPost,
Stuart News
Eng and GMD,
Can someone tell me what’s going on here? (see
PBPost article below on Lindeman proposing to sell
Martin County water to West Palm Beach.)
Correct me where I’m wrong, but it was my understanding that:
1. Martin County allowed the developer to destroy
wetlands because this was a county drainage project.
It was supposed to help CERP. It was never mentioned
that this was a private project to sell Martin County
water to Palm Beach County
2. The land was to be deeded to Martin County
and the SFWMD.

Res.App.20a
3. The 700 acre preserve was to be deeded to
Martin County within a year. Has It been?
4. After initially claiming that the rockpit had
unique geology like the Palm Beach Aggregate rockpits, the WMD and the applicant agreed that it was
not a water storage reservoir. It is a hole in the ground
that fills up with water from the shallow aquifer. It
Is across SR 76 from the St. Lucie Canal so whenever
canal levels are higher than the reservoir level, seepage, through the aquifer will make water levels the
same in the rockpit and the canal. Seepage will also
balance levels if the rockpit has higher water levels
than the canal.
5. Because the aquifer surrounding the rockpit
is porous, whenever water is pumped into it, it will
seep out to the canal and the surrounding aquifer.
6. The developer was to deed the preserve area
to Martin County, create a flow through marsh to
recirculate water from the canal through the rockpit
and marsh and back into the canal and give the District
an easement to connect to L8. Besides digging up rock
and selling it, has anything else been done?
7. The District was supporting the project because
it allowed a connection of the St. Lucie Canal and the
L8 canal and could provide low flows to the Loxahatchee when the St. Lucie Canal had excess water.
There were no modeling studies to show how often the
St. Lucie Canal would be discharging excess water
when the Loxahatchee needed water.
8. It was not mentioned that the L8 connection
also allowed increased water flows to Palm Beach
County from Lake Okeechobee when the Lake was
too low to flow through Palm Beach County connections.

Res.App.21a
When the Lake is above 15ft, the locks at Port Mayaca
are closed and the Lake is cut off from the St. Lucie
Canal. When the Lake is 15ft or below, the Port Mayaca
locks are open and the St. Lucie Canal is basically an
extension of Lake Okeechobee.
9. It is not clear what water the rockpit owner
proposes to sell.
- Is it to be withdrawn from the surrounding
aquifer and by seepage from the St. Lucie Canal?
- Is it to be pumped from the St. Lucie Canal?
- Will this source be used only when the St. Lucie
Canal is discharging at the St. Lucie Locks?
How often does that happen and does it ever
happen when West Palm Beach needs water?
- Will the source be a direct connection to Lake
Okeechobee when the Lake is at or below 15
ft? Have additional withdrawals from the Lake
been permitted by the SFWMD? Have they been
Included in CERP calculations?
10. The rockpit was supposed to pay a per cubic
yard fee to Martin County. Have we monitored digging?
Do we know the current dimensions of the rockpit and
how much fill was removed? What is the rate per yard
Martin County receives and how much have we been
paid so far?
11. Have wetlands been destroyed? How many
acres? What mitigation has taken place?

